                                                            U.S. Department of Justice

                                                            United States Attorney
                                                            Western District of Washington

Jenny A. Durkan                                             U.S. Courthouse
United States Attorney                                      700 Stewart Street, Suite 5220
                                                            Seattle, Washington 98101
                                                            206-553-7970


FOR IMMEDIATE RELEASE                                       PRESS CONTACT:
January 27, 2012                                            Emily Langlie 206-553-4110


MAN WHO LIVED FOR THREE DECADES UNDER FALSE IDENTITY SENTENCED
        FOR IDENTITY THEFT AND ILLEGAL GUN POSSESSION
            Stole Identity in 1977, Committed Crimes for 30+ Years

        A Covington, Washington, man who lived under a stolen identity for more than 30 years,
even as he racked up prison sentences, was sentenced today in United States District Court in
Seattle to 57 months in prison, announced U.S. Attorney Jenny A. Durkan. CURTIS TYRONE
WUDTEE, 62, pleaded guilty in 2011 to misuse of a Social Security Number, aggravated
identity theft and being a felon in possession of a firearm. While living under the identity of
M.L.S., a person he met in 1977, WUDTEE was convicted of multiple different felonies and
failed to pay back taxes. Those activities impacted the person whose identity had been stolen.
At sentencing Chief United States District Judge Marsha J. Pechman noted that WUDTEE had
previously been convicted of being a felon in possession of a firearm. “That tells me that the
person is told exactly by a judge . . . you can’t have a firearm . . . [Y]ou have a conviction for
that. It’s not ancient and then he does it again,” Chief Judge Pechman said.

        According to records in the case, the criminal investigation began in January 2010, after
the Washington State Department of Licensing (DOL) was contacted by an individual in New
York who said he was the true M.L.S. M.L.S. had sought a learner’s permit for a driver’s
license, and was told he needed to bring in his Washington State identity information. Since he
had never even visited Washington State, M.L.S. called DOL to report possible identity theft.
DOL investigators determined that someone had obtained identity documents in both the M.L.S.
name and in another name. Ultimately, the research revealed that WUDTEE was living under
the M.L.S. identity. Investigators obtained a search warrant for WUDTEE’s home and found
four firearms in the home, one of which was a stolen firearm. WUDTEE is prohibited from
possessing firearms because of his prior felony convictions.

         In 1979, while living under the name M.L.S., WUDTEE was convicted of the armed
robbery of a service station. The victim was beaten and pistol whipped. WUDTEE was
sentenced to 20 years in prison. In 1994, WUDTEE got into an argument with friends and fired
at least five rounds into the ground at their feet – he was convicted of reckless endangerment and
unlawful display of a weapon. In 2005, WUDTEE punched and struck his wife with the blunt
end of a hatchet, and then threatened to “blow her away.” When police responded they seized
two guns from the home. As a result, WUDTEE was convicted of domestic violence and
unlawful possession of a firearm.

        When the true M.L.S. was interviewed, he revealed that, in 1977 he had encountered
WUDTEE in a bar fight in Baltimore, Maryland, and that WUDTEE had taken off with M.L.S.’s
wallet. M.L.S. indicated, in the mid-1980s he had been contacted by the IRS about taxes owed
on west coast employment. Once M.L.S. demonstrated he had not been employed on the west
coast, the matter was dropped. It wasn’t until he sought a driver’s license that the matter was
investigated.

        In asking for a significant sentence, prosecutors wrote to the court, “[f]or more than 30
years, [Wudtee] has lived under the stolen identity of M.L.S. Moreover, Wudtee is a classic
example of how serious an impact such identity theft can have. The real M.L.S. has been pursued
by the IRS for tax debts accumulated by Wudtee, and has been unable to obtain a driver’s
instructional permit. In addition, Wudtee has amassed a long criminal history under M.L.S.’s
identity, conduct that obviously can have extreme adverse consequences for victims.”

      The case was investigated by the Social Security Administration Office of Inspector
General (SSA-OIG), the Washington State Department of Licensing Fraud Unit, and the
Washington State Employment Security Fraud Unit, with assistance from the United States
Marshals Service and the Bureau of Alcohol, Tobacco, Firearms & Explosives (ATF).

       The case originally was prosecuted by Assistant United States Attorney Michael Scoville.
Following Michael Scoville’s departure from the United States Attorney’s Office, the case is
being prosecuted by Assistant United States Attorney Andrew Friedman

       For additional information please contact Emily Langlie, Public Affairs Officer for the
United States Attorney’s Office, at (206) 553-4110 or Emily.Langlie@USDOJ.Gov.
